Supreme Court, U.S.
FILED

JUN 0 1 2020
OFFICE OF THE CLERK

No

. J1-I3H1

In the Supreme Court ofthe United States
RICHARD A. VAN AUKEN, TRUSTEE AND
RICHARD A. VAN AUKEN, BENEFICIARY,
PETITIONERS,
v.
FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; AND
KAREN AUBREY, ESQ.,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEW MEXICO COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI
RICHARD A. VAN AUKEN,
TRUSTEE AND BENEFICIARY
pro se
223 North Guadalupe Street, #605
Santa Fe, New Mexico 87501
917/216-0523
sftrustcase@swcp .com
LEGAL PRINTERS LLC • Washington, DC • 202-747-2400 • legalprinters.com

QUESTION PRESENTED

Whether, after eighteen years of litigation and
multiple requests for a final judicial
determination of langauge in a six-page
express trust contract, the refusal of New
Mexico State Courts to provide such a final
determination of trust contract meaning and
effect, a fact central to proving claims of
fraudulent and deceitful taking of family
property held in trust, represents judicial
denial of due process under the Fifth and
Fourteenth Amendments to the Constitution
of the United States.

i

PARTIES TO THE PROCEEDING

Petitioner is Richard A. Van Auken, both as the
Trustee and as a Beneficiary (one of seven such
beneficiaries presently alive) under the terms of the
Seton Family Trust Agreement, a Trust Contract
entitled Burr E. Lee, Jr. and Ruth C. Lee SelfDeclaration of Trust No. 10331J.
Respondents are Fletcher R. Catron, Esq.; Peter F.
Wirth, Esq.; and Karen Aubrey, Esq..

ii

PROCEEDINGS IN DIRECTLY RELATED CASES
[Rule 14(B)(iii)]
2002 Probate Proceeding
Court: N.M. First Judicial District Court
Caption: In Re Burr E Lee Jr
Docket No.: D-101-PB-2002 00163
Filing: Fletcher R. Catron, Esq., for Marie Harrison,
Personal Representative on July 18, 2002
Presiding Judges: Carol Vigil, Barbara J. Vigil
Date of Final Probate Order: July 21, 2003
2003 Post-Probate Proceeding
Court: N.M. First Judicial District Court
Caption: Alexander et al. v. Harrison
Docket No.: D-101-CV-2003 01861
Filing: Jon Diener, Esq., for Trustee Gretchen Van
Auken and Beneficiaries Judith Alexander,
Betsy Lee Joppe, Gretchen Van Auken, Susan
Van Auken and Richard VanAuken on
October 7, 2003
Presiding Judge: Carol Vigil
Date of Order of Dismissal: November 18, 2004
2006 Probate Fraud Proceeding
Court: N.M. First Judicial District Court
Caption: Van Auken v. Catron et al.
Docket No.: D-101-CV-2006 01509
Filing: Richard VanAuken, pro se, on July 10, 2006
as Trustee and as Beneficiary
Presiding Judges: James A. Hall, Sarah Singleton,
David K. Thomson, et al.
Dates:
Order of Dismissal with Prejudice: March 31, 2011
Final Order Denying Plaintiffs Rule 1-060(B)(6)
Motion to Set Aside March 31, 2011 Order of
Dismissal: June 7, 2016
iii

Court: N.M. Court of Appeals (2007)
Caption: Van Auken v. Catron et al.
Docket No. 27,554 - Consolidated
Plaintiffs Appeals of District Court Orders
No. 27,554: Order Denying Plaintiffs Motion for
Partial Summary Judgment
No. 27,555: Order Dismissing Claims of Trustee
No. 27,556: Order Dismissing Claims Against
Peter F. Wirth With Prejudice
No. 27,557: Summary Judgment Dismissing Claims
Against the Estate of William A. Sawtell, Jr.
No. 27,558: Order Granting Motion to Dismiss
(presented by Karen Aubrey)
Dates:
Filing by Richard A. Van Auken pro se: July 2. 2007
Order of Consolidation and Limited Remand: July 31,2007
First Calendar Notice: January 7, 2008
Second Calendar Notice: April 15, 2008
Memorandum Opinion: June 27, 2008
Court: N.M. Court of Anneals (20161
Caption: Van Auken v. Catron et al.
Docket No. A-l-CA-35704
Date of Memorandum Opinion: September 11, 2019
Date of Denial of Rehearing: October 8, 2019
Court: N.M. Supreme Court
Caption: Van Auken v. Catron et al.
Docket No.: S-l-SC-38001
Date Certiorari Denied: December 6, 2019
Date of Denial of Rehearing: January 3, 2020
2007 Attorney Malpractice and Fraud Proceeding
Court: N.M. First Judicial District Court
Caption: Lee v. Catron et al.
Docket No.: D-101-CV-2007 01162
iv

Filing: Bill Gillstrap, Esq. and Daymon Ely, Esq., on
behalf of the Burr E. Lee and Ruth C. Lee Trust
and Trustee Richard A. Van Auken
Filing Date: May 15, 2007
Presiding Judge: James A. Hall
Date of Order of Dismissal: March 18, 2008
Court: N.M. Court of Anneals
Caption: Lee v. Catron et al.
Docket No.: Ct. App. 28,590
Dates:
Calendar Notice: July 23, 2008
Opinion: September 16, 2008
Order Denying Motion for Rehearing: October 21,2008
Court: N.M. Supreme Court
Caption: Lee v. Catron et al.
Docket No.: Sp. Ct. 31,410
Dates:
Certiorari Denied: December 30, 2008
Rehearing Denied: February 13, 2009
Court: United States Supreme Court
Caption: Richard A. Van Auken v. Catron, et al.
Docket No: USSC 08-1421
Dates:
Petition Filed: May 14, 2009
Petition Denied: October 5, 2009
Rehearing Denied: November 30, 2009
2008 Fraud and Conspiracy Proceeding
Court: N.M. First Judicial District Court
Caption: Seton v. Wirth et al.
Docket No.: D-101-CV-2007 01162
Filing: Richard VanAuken, pro se on July 14, 2008
As Trustee and As Beneficiary
Presiding Judge: James A. Hall
Date of Final Dismissal Order: March 23, 2009
v

Court: N.M. Court of Appeals
Caption: Seton v. Wirth et al.
Docket No.: 30,215
Date of Memorandum Opinion: August 18, 2010
Date of Rehearing Denial: September 23, 2010
Court: N.M. Supreme Court
Caption: Van Auken as [Seton] Trustee v. Wirth et al..
Docket No.: 32,650
Date of Denial of Petition: January 3, 2011
Caption: Van Auken as [Seton] Beneficiary v. Wirth etal..
Docket No.: 32,651
Date of Denial of Petition: January 3. 2011
Date of Denial of Rehearing: January 25. 2011
Court: United States Supreme Court
Caption: Richard A. Van Auken, Trustee, Petitioner
v. Peter Wirth, et al.
Docket No.: USSC 10-1217
Dates:
Petition Filed: April 4, 2011
Petition Denied: October 3, 2011
Rehearing Denied: November 28, 2011
Caption: Richard A. Van Auken, Beneficiary,
Petitioner v. Peter Wirth, et al.
Docket No.: USSC 10-1325
Dates:
Petition Filed: April 25, 2011
Petition Denied: October 3, 2011
Rehearing Denied: November 28, 2011
2011 Declaratory Proceeding
Court: N.M. First Judicial District Court
Caption: Seton et al. v. Catron et al.
Docket No.: D-101-CV-2011 01917

vi

Filing: David Standridge, Esq. On behalf of Seton
Family Trust Interests, Richard A. Van Auken,
Trustee and Beneficiaries Judith Alexander,
Betsy Lee Joppe, Carol Lee Doeden, Jeff
Neuman-Lee, Gretchen Van Auken, Susan Van
Auken and Richard VanAuken on June 14, 2011
Presiding Judge: Barbara J. Vigil
Date of Final Dismissal Order: October 23, 2011
Date of Injunctive Relief Order: November 1, 2011
Court: N.M. Court of Appeals
Caption: Van Auken v. Catron
Docket No.: Ct. App. 31,961
Date of Final Opinion: January 7, 2013
Court: N.M. Supreme Court
Caption: Seton Trustee et al. v. Catron
Docket No.: Sp. Ct. 34,019
Date Certiorari Denied: March 14, 2013
Caption: Seton Beneficiary et al. v. Catron
Docket No.: Sp. Ct. 34,021
Date Certiorari Denied: March 14, 2013
Court: United States Supreme Court
Caption: Richard A. Van Auken, Beneficiary,
Petitioner v. Fletcher R. Catron
Docket No.: USSC 12-1476
Dates:
Petition Filed: June 12, 2013
Petition Denied: October 7, 2013
Rehearing Denied: December 2, 2013
Caption: Richard A. Van Auken, Trustee,
Petitioner v. Fletcher R. Catron
Docket No.: USSC 12-1477
Date Petition Filed: June 12, 2013
Date Petition Denied: October 7, 2013

vii

1

TABLE OF CONTENTS
Questions Presented...............................................
Parties to the Proceeding ......................................
Proceedings in Directly Related Cases...............
Table of Contents ...................................................
Index to Appended Documents and Authorities
Table of Authorities................................................
Opinions below .......................................................
Jurisdiction .............................................................
Statutory and Constitutional Provisions ........
Statement of Case and Petition...........................
Review of Litigation Record ................................
State Court Failure to Review Trust Contract
Opposing Opinions on Language and Effect..
Trust Contract Suppressed in Probate............
Pro Se Trustee Used to Block Contract Review ....
Dismissals Without Contract Review Non-Final..
Injunctive Relief and Rule 60 Motion
Reasons for Granting the Petition........
I. State Courts Refused to Provide Meaning ....
and Effect of Trust Contract Language
II. State Courts Obstructed Due Process
III. Due Process and Equity Theft Trends
Conclusion .........................................................

viii

1
11

m
Vlll
IX
Xlll

1
2
3
4
6
7
10
11
12
17
19
20
20
21
23
24

Index to Appended Documents and Authorities
Pet. Ann. No.

Document/Authoritv

Page

SECTION A
RECENT APPELLATE RECORD
• September 11, 2019 through January 3, 2020 •

1.

2.

3.

4.

Judicial Opinions and Orders
(in reverse chronological sequence)
N.M. Supreme Court Order Denying Motion ....
for Rehearing
(by Joey D. Moya, Chief Clerk of the
Supreme Court of the State of New
Mexico)
Entered: January 3, 2020
N.M. Supreme Court Order Denying Petition ...
(by Madeline Garcia, Chief Deputy Clerk)
Entered: December 6, 2019
N.M Court of Appeals Order Denying Motion ....
for Rehearing
(by Court of Appeals Judge M. Monica
Zamora)
Entered: October 8, 2019
N.M. Court of Appeals Memorandum Opinion ..
(by Chief Judge M. Monica Zamora)
Entered: September 11, 2019

2a

3a

5a

6a

Pleadings and Notices
(in chronological order)
5. Plaintiff-Appellants' Motion for Rehearing ..
(by Richard A. Van Auken, as Trustee
and as Beneficiary)
Entered: September 26, 2019
ix

15a

,..
6. Plaintiff-Appellants' Petition for a Writ of,
Certiorari
(by Richard A. Van Auken, as Trustee
and as Beneficiary)
Entered: November 7, 2019
7. N.M. Supreme Court Notice of Filing .......
(by Zelda Abeita, Deputy Clerk)
Entered: November 7, 2019
8. N.M. Supreme Court Notice of Recusal....
of Justice Barbara J. Vigil
(by Madeline Garcia, Chief Deputy Clerk)
Entered: November 27, 2019
9. N.M. Supreme Court Notice of Recusal...........
of Justice David K. Thomson
(by Madeline Garcia, Chief Deputy Clerk)
Entered: November 27, 2019
10. Plaintiff-Appellants' Motion for Rehearing ....
(by Richard A. Van Auken, as Trustee
and as Beneficiary)
Entered: December 21, 2019

31a

45a

46a

47a

48a

SECTION B
SETON FAMILY TRUST AGREEMENT
"Burr E. Lee Jr. and Ruth C. Lee
Self-Declaration of Trust No. 10331J"
11. Trust Contract: Burr E. Lee, Jr. and Ruth...... 55a
C. Lee Self Declaration of Trust No. 10331J
(by William J. Joost, attorney and witness)
Signed by Settlors: May 9, 1979
12. Trust Language Advice in March 15, 2000 ..... 66a
Letter to Trustee
(Issued by Fletcher R. Catron, Esq.)
Entered in Court: January 30, 2007
x

13. Warranty Deed Transferring Seton Family... 69a
Property Held by Trustee to Marie
Harrison, Ruth Lee's 1992 Hospice Nurse
(prepared and filed by Fletcher R. Catron,
attorney and witness)
Signed by Burr E. Lee, Jr.: June 12, 2000
14. Letter Describing Probate Representation ... 72a
(Catron, Harrison/Estate; Aubrey, Trustee)
By Fletcher R. Catron: September 25, 2002
15. District Court Order on Extrinsic Evidence ... 73a
(by Judge Carol Vigil in related case)
Entered: April 11, 2004
16. Affidavit of Fletcher R. Catron on Attorney-... 74a
Client Relationsip with Trustee (excerpts)
(filed by Peter F. Wirth in related case)
Entered: July 10, 2004
75a
17. District Court Order on Trust Ambiguity
(by Judge James A. Hall)
Entered: February 8, 2007
76a
18. Expert Affidavit on Trust Language ......
(by James F. Beckley, attorney)
Entered: April 2, 2007
86a
19. Supporting Affidavit on Trust Language ..
(by William J. Joost, Settlors' 1979 attorney)
Entered: October 31, 2008
SECTION C
STATUTORY AND CONSTITUTIONAL PROVISIONS
[Rule 14.1(i)(v)]
90a
20. U.S. Code: Judiciary and Judicial
Procedure 28 U.S.C. §1654,
Appearance personally
Current as of: May 29, 2020

xi

21. N.M. Statutes Annotated (1978), Attorneys ... 90a
NMSA §36-2-17, Attorney deceit or collusion
Current as of May 29, 2020
22. N.M. Misc. Civil Law, Declaratory Judgments .. 90a
NMSA §44-6-2, Scope; NMSA §44-6-4, Power
to Construe; NMSA §44-6-14, Construction
Current as of May 29, 2020
23. New Mexico Probate Code ................................ 91a
NMSA §45-l-102(B),Underlying purposes
NMSA, §45-l-106(A), Effect of Fraud
Current as of May 29, 2020
24. N.M. Trust Code: NMSA §46A-3-303 ........... 92a
Representation by fiduciaries,
Current as of May 29, 2020
25. U.S. Constitution, Amendment XIV, Sec. 1.. 93a
Equal protection and due process
Enacted: July 9, 1868
26. U.S. Constitution, Amendment V.................. 93a
Due process
Enacted: December 15, 1791

25.

26.

27.

28.

SECTION D
MISCELLANEOUS ITEMS
N.M. Court of Appeals Memorandum Opinion.. 95a
(by Judge A. Joseph Alarid)
Entered: June 27, 2008
N.M. Court of Appeals Order on Trustee........ 101a
(Lee u. Catron, by Judge Jonathan B. Sutin)
Publication Date: March 17, 2011
District Court Hearing Transcript .................. 105a
(Case Dismissal by Judge Sarah Singleton)
Hearing Date: March 17, 2011
District Court Order Granting Injunctive Relief ..127a
(Issued by Judge Barbara J. Vigil)
Date Entered: November 1, 2011
xii

TABLE OF AUTHORITIES
Cases:
Lee v. Catron, 2009-NMCA-018 .. 14, 15, 21, 22, 101a
Mark V., Inc. v. Mellekas, 1993-NMSC-001, .... 8, 18
1 13, 114 N.M. 778
Martinez u. Roscoe, 2001-NMCA-083, 131
14
131 N.M. 137 P.3d 887
Statutes:
New Mexico Statues Annotated 1978
New Mexico Statute on Attorneys
NMSA §36-2-17 Attorney
3, 5, 14, 16, 90a
deceit or collusion
New Mexico Declaratory Judgment Act
NMSA §44-6-2, Scope
3, 8, 18, 90a
NMSA §44-6-4, Power to Construe ...3, 7, 91a
NMSA §44-6-14, Construction
3, 91a
New Mexico Probate Code
NMSA §45-1-102(B) Purposes of Act.... 3, 91a
NMSA §45-l-106(A) Effect .... 3, 5, 14, 16, 92a
of Fraud or Evasion
New Mexico Trust Code
NMSA §46A-3-303, Representation .. 3, 15, 92a
U.S. Code, Judiciary and Judicial Procedure
28 U.S.C. §1654, Appearance
3, 14, 90a
personally
2
28 U.S.C. §1257(a), State courts, certiorari
Constitution of the United States:
Amendment V: Due Process .....
Amendment XIV, Section 1: Due
Process

xiii

3, 6, 93a
3, 6, 93a

In the Supreme Court ofthe United States
RICHARD A. VAN AUKEN, TRUSTEE AND
RICHARD A. VANAUKEN, BENEFICIARY,
PETITIONERS
v.
FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; AND
KAREN AUBREY, ESQ.,
RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEW MEXICO COURT OF APPEALS
PETITION FOR A WRIT OF CERTIORARI
Richard A. Van Auken, Trustee of the Burr E.
Lee, Jr. and Ruth C. Lee Self-Declaration of Trust
No. 10331J and Richard A. Van Auken, Beneficiary
under this same Trust Contract respectfully petition
this Court for a writ of certiorari to review a
Memorandum Opinion of the New Mexico Court of
Appeals.
OPINIONS BELOW
The full record of recent appellate activity, with
the exception of a motion (granted) to make minor
text corrections in one pleading, is found in Section A
of the Appendices to this Petition. The September 11,
2019 Memorandum Opinion of the New Mexico
Court of Appeals (Pet. App. 6a-14a) was not selected
for publication in the New Mexico Appellate Reports.
The October 8, 2019 Order of the New Mexico Court
of Appeals (Pet. App. 5a) denying Petitioners'
-1-

September 26, 2019 Motion for Rehearing (Pet. App.
15a-30a) is also not reported. The December 6. 2019
New Mexico Supreme Court Order (Pet. App. 3a-4a)
denying Petitioners' November 7, 2019 Petition for a
Writ of Certiorari (Pet. App. 31a-44a) and its
January 3, 2020 Order (Pet. App. 2a) denying
Petitioners' December 21, 2019 Motion for Rehearing
(Pet. App. 48a-53a) are also not reported. Two
Justices of the New Mexico Supreme Court recused
themselves. (Pet. App. 46a and 47a).1
JURISDICTION
The state appellate court's Memorandum Opinion
was entered on September 11, 2019 and the final
Order of the state supreme court denying Petitioners'
Motion for Rehearing of certiorari was entered on
January 3, 2020. The jurisdiction of this Court is
invoked through 28 U.S.C. §1257(a) for rights and
privileges claimed under United States statutes and
the Constitution. Submission of this Petition and its
printed format are in accordance with recent United
States Supreme Court orders. A request for
extension of time to file this Petition was made on
March 19, 2020 but the request was made moot by
an administrative order of this Court entered that
same day extending all filing deadlines by 60 days.

i

Justice Barbara J. Vigil joined the NMSC in 2012 after
presiding over the disputed 2002 Probate Proceeding and
issuing an Order for Injunctive Relief against Petitioners in
2011; Justice David K. Thomson joined the NMSC in 2019 after
denying Petitioners’ Rule 1-060(B)(6) motion now under appeal.

-2-

STATUTORY AND CONSTITUTIONAL
PROVISIONS
Section 1654 of the U.S. Code, Judiciary and
Judicial Procedure - 28 U.S.C. §1654, Appearance
personally or by counsel - is set out in Section C of the
Petition Appendices (Pet. App. 90a).
Several parts of New Mexico Statutes Annotated
(1978) are also set out in Section C of the Petition
Appendices starting with Chapter 36 for Attorneys,
Article 2 - NMSA §36-2-17, Attorney deceit or
collusion (Pet. App. 90a); followed by three sections
from the New Mexico Declaratory Judgment Act,
Article 6 - NMSA §44-6-02, Scope, (Pet. App. 90a)
NMSA §44-6-04, Power to construe, (Pet. App. 91a)
and NMSA §44-6-14, Construction (Pet. App. 91a);
followed by two statutes from the New Mexico
Probate Code, Chapter 45, Article 1 - NMSA §45-1102(B) Purpose of Act (Pet. App. 91a) and NMSA
§45-1-106(A) Effect of fraud or evasion (Pet. App.
92a); followed by Section 303 of the State of New
Mexico Uniform Trust Code, Article 3 - NMSA §46A3-303(D), Representation by fiduciaries (trustee)
(Pet. App. 92a).
Section 1 of Amendment XIV to the Constitution
of the United States (due process) is set out in the
Petition Appendices (Pet. App. 93a) along with
Amendment V to the Constitution of the United
States (due process) (Pet. App. 93a).

-3-

STATEMENT OF CASE AND PETITION
It is estimated that approximately $1.5 trillion in
personal wealth is transferred from an aging older
generation to a younger generation each year in the
United States.2 Members of the legal profession
benefit greatly from these transfers because a large
amount of billable work results from the need for
wills, deeds, trust arrangements and other forms of
estate planning and execution.
Over time, however, certain predatory attorneys
backed by cooperative judges throughout the United
States have substantially increased their financial
returns by redirecting to themselves and others some
parts of this wealth being transferred each year
denying the intended recipients legal possession of
family assets and/or their inheritance.
Operating through equity documents like wills
and express trusts, predatory attorneys find
loopholes or develop schemes whereby such
redirection can be accomplished with little or no risk.
Using the unappealable equity powers of the state
courts, cooperating judges shield these equity theft
schemes from immediate claims for restitution
and/or damages. In many cases the intended
recipients are completely unaware that valuable
equity rights have been wiped out or "stolen" until
well after possession of or title to the wealth
intended for them has been legally redirected to
others.
In 2002 Petitioner-Beneficiary and his six siblings,
each named as a beneficiary in a family Trust

2 Center for Estate Admnistration Reform: www.cearjustice.org

-4-

Contract, learned that they had been victimized by
one such equity theft scheme. It would many years
before the details about the scheme, a multi-year
effort spanning two generations of the Petitioners'
family, would become apparent. Both of the valuable
real property assets held under the terms of the
Trust Contract, the Seton Family Trust Agreement,
were lost as each had been redirected to another
person years before the intended beneficiaries knew
that such property transfers had taken place.
The statutory claims of probate fraud and
attorney deceit or collusion in this Case filed by
Petitioners both as the trustee and as a beneficiary
in 2006 arise from the record of an apparently
corrupted probate proceeding for the estate of
Petitioners' step-father, Burr E. Lee, Jr. in 20022003 and from a belief that the Trust Contract could
be enforced against those who arranged its breach.
Petitioners' attempts to enforce the terms of Trust
Contract have turned out thus far to be a seemingly
impossible legal task for the simple reason that state
court judges cooperating with the perpetrators of the
equity theft scheme have ignored, side-stepped,
suppressed, blocked, and, ultimately, refused to
make any sort of final determination of the meaning
and effect of the language in the six-page 1979 Seton
Family Trust Agreement. The multi-year denial of
Petitioners' many requests for such final judicial
determination, the key fact needed to prove the
culpability of the equity theft schemers by
demonstrtating a breach-of-contract, has been
denied Petitioners.
Equity and good conscience guide many of the
judicial rulings made under the equity powers of the
-5-

state courts used in trust and estate matters but
interpretation and enforcement of a valid contract is
not a matter of equity but a matter of law. Equity
rulings cannot violate law.
The Fifth Amendment to the United States
Constitution states that "No person shall ... be
deprived of. . . property, without due process" (Pet.
App. 93a) and the Fourteenth Amendment goes a
little further and says "No State shall. . deprive any
person of . . . property, without due process of law."
(Pet. App. 93a) Valuable family property has been
taken by stealth and the state courts of New Mexico
have refused to provide a key fact that it is their
duty to provide, the key fact that subjects this act of
"taking" family property to due process under the
laws of New Mexico and the United States.
The state courts of New Mexico, in support of the
Respondents to this Petition, appear to have violated
the Constitutional due process rights of the
Petitioners.
This Petition seeks the power and authority of this
Court in correcting the failure and refusal of the
state courts of New Mexico to provide a final
determination of the meaning and effect of language
in the Petitioners' family Trust Contract.
REVIEW OF LITIGATION RECORD
All of the key facts and arguments supporting this
Petition are to be found in the major rulings,
pleadings and other documents from the extensive,
fourteen-year record of litigation in this Case that
are appended to this Petition. Many items appear in
the Recent Appellate Record entered between
September 11, 2019 and January 3, 2020. (Pet. App.

-6-

Section A: la-53a) Highlights in the overall record of
suppression and denial of Petitioners' due process
rights in opinions and actions large and small by
state court judges since 2002, are reviewed in the
following six sections of this Petition.
State Court Failure to Review Trust Contract
The Recent Appellate Record as reproduced in
Section A of the Appendices (Pet. App. la-53a)
contains everything needed to understand not just
the failure, but the multi-case, multi-year refusal of
the state courts to provide a final judicial review of
the meaning and effect of the language in the sixpage 1979 Seton Family Trust Contract. All orders,
pleadings and notices entered into this Recent
Appellate Record from the September 11, 2019
Memorandum Opinion of the N.M. Court of Appeals
(affirming the lower court dismissal) to the January
3, 2020 Order of the N.M. Supreme Court (denying
Petitioners' Motion for Rehearing) are appended to
this Petition.
(Pet. App la-53a) The record
demonstrates with considerable finality that the
state court system does not feel obligated to provide
any final determination of the meaning and effect of
Trust Contract language. Unable to point to any final
determination or even a final order establishing
ambiguity, the appellate record shows a summary
judicial conclusion that all of Petitioners' extensive
pleadings for such review "Are Without Merit." (Pet.
App. 13a §111). The state courts of New Mexico are
apparently refusing to do their duty under NMSA
§44-6-4, the Declaratory Judgment Act, Power to
construe (Pet. App. 91a), and other statutes.
It has taken nearly fourteen years of litigation in
this Case since 2006 to reach this conclusion that the
-7-

state courts are refusing, i.e., feeling no obligation, to
provide a final determination of the meaning and
effect of language in the Trust Contract.
The long-standing obstruction of review of trust
contract language by the Respondents and the
failure of the judiciary to have conducted a review,
when required under Mark V., Inc. v. Mellekas, 1993NMSC-001, If 13, 114 N.M. 778, shows that the
fundamental relief sought by Petitioners was never
factually addressed. The Petitioners have been
denied access access to the one fact needed to
prove all of the original claims in this Case.
A significant portion of all major pleadings cited
in the New Mexico Court of Appeals Memorandum
Opinion denying Petitioners' Rule 1-060(B)(6) motion
consisted of argument presented by one or both
Petitioners regarding the need for the state courts to
provide, as specified in the New Mexico Declaratory
Judgment Act, a final determination of the meaning
and effect of language in the six-page Seton Family
Trust Contract. The Rule 1-060(B)(6) motion
underlying the appeal in this Case led with the need
for a final determination, and the two Rule 1-059
motions for reconsideration referenced in the
Memorandum Opinion both highlighted this issue.
(Pet. App. 7a, §3, lines 5-7) Both of the major
documents submitted by the Petitioners in the
appeal process, the Docketing Statement and the
Brief-in-Chief, led with the issue of Trust Contract
language.
There can be no doubt that the three judge panel
assigned to this Case by the New Mexico Court of
Appeals was well aware of this fundamental issue.
Yet they determined these arguments to be "without
-8-

merit." (Pet. App. 14a, 1 3) One of the reasons given
was that the appellate court is not a fact-finding
body. (Pet. App. 13a, §15) However, the "fourcorners" of the Trust Contract likely contain all that
is needed to render a final determination as a matter
of law. New Mexico trust authority James Beckley,
Esq. testified in a sworn statement that the trust
language "is unambiguous" (Pet. App. 78a,
14)
meaning that the appellate court could review the
language as a matter of law with no need for fact
finding.
Although the ability of the higher state courts to
make a determination was presented in detail by
Petitioners three times again in (i) the September 26,
2019 Motion for Rehearing, in (ii) the November 7,
2019 Petition for a Writ of Certiorari to the New
Mexico Supreme Court, and, most recently, in (iii)
the December 21, 2019 Motion for Rehearing; all
such requests were denied. See all these decisions
and pleadings in the Recent Appellate Record in
Section A of the Appendices to this Petition.
All hope for state court review of the Trust
Contract has been exhausted. The state courts are
refusing to do such a review and this leaves the
Petitioners with no means of enforcing clear Trust
Contract terms against those involved in the
"property-taking" scheme that breached the lawful
terms set forth in the Trust Contract. This position of
the state courts to avoid review of the Trust
Contract, likely present from the very beginning of
the litigation record in 2002, is a clear violation of
the due process rights of the Petitioners and the
other six vested beneficiaries named in the Seton
Family Trust Contract.
-9-

Opposing Opinions on Language and Effect
Early avoidance of Trust Contract review by
cooperative state court judges turned to suppression
and denial once the two opposing views of the
meaning and effect of Trust Contract language were
put into the record of this Case in 2007.
Two opposing opinions of Trust Contract
language, one allowing property transfer to non­
beneficiaries and the other not and neither viewing
the language as ambiguous, appear in the
Appendices to this Petition in Section B, Seton
Family Trust Agreement. (Pet. App. 54a-88a)
General suppression of the Trust Contract began in
the 2002 probate case but by the time both of these
opinions became part of the litigation record in 2007,
the only realistic means for the Respondents to avoid
accountability for the equity theft scheme and the
probate fraud claims of the Petitioners was for
cooperating state court judges to prevent any judicial
review of the meaning and effect of Trust Contract
language.
One of the two opinions, issued by Respondent
Fletcher R. Catron, Esq. (Pet. App. 66a, If 2), says the
Trust Contract can be revised and property
redirected to others provided that successor
benficiaries are not changed in the revision. "[Y]ou
may amend and modify the trust however you want
except that the successor benficiaries must not be
altered." (Pet. App 66a, 1 2)
The other opinion, authored by New Mexico trust
authority James F. Beckly, Esq., says that upon the
death of co-settlor Ruth C. Lee in 1992, the Trust
Contract could no longer be revoked (Pet. App. 79a,
Tf1fl7, 18) and the seven children of Burr and Ruth
- 10-

Lee "became vested remainder beneficiaries." (Pet.
App. 79a, 1117, 19)
Major documents pertaining to review of Trust
Contract language taken from the litigation record in
this Case are reproduced in Section B of the
Appendices to this Petition. (Pet. App. 54a-88a) In
addition to the two opinions cited above, these
documents include (i) the Trust Contract itself; (ii)
an early district court order preventing the use of
expert witnesses on contract language in a related
case; (iii) sworn testimony3 by Defendant Fletcher R.
Catron, Esq., submitted by Defendant Peter F.
Wirth, Esq. in that related case; (iv) the district court
finding on Trust Contract "ambiguity" in this Case;
and (v) an affidavit corraborating the Beckley
opinion on language in the Trust Contract from
William Joost, Esq., author of the 1979 Trust
Contract and witness to its execution by the co-settlors.
Trust Contract Language Suppressed in Probate
The probate proceeding In Re Burr E Lee, Jr.
(2002) included a successful effort by licensed
attorneys representing each of the parties (the three
Respondents to this Petition) to sideline the Trust
Contract and avoid any review of its language.

3 Oddly, this sworn testimony by Respondent Catron provided
Petitioners and other family members with the first indication
of improper professional conduct as it demonstrated that Mr.
Catron had advised the successor trustee Burr E. Lee, Jr. prior
to his death and then, in Mr. Lee’s probate case, switched sides
to represent the interests of the personal representative (who
ended up with title to both family properties) in opposition to
the new successor trustee. This submission set the start date
for the two year statutory limit on filing probate fraud claims.

- 11 -

Correspondence between (i) Karen Aubrey, Esq.
(representing the successor trustee and beneficiaries
named in the Trust Contract) and both (ii) Fletcher
R.. Catron, Esq. (representing Marie Harrison in her
capacity as personal representive of the estate of
Burr E. Lee, Jr.) (Pet. App. 72a) and (iii) Peter F.
Wirth, Esq. (subsequenty retained to represent
Marie Harrison's personal interests in the Seton
family property that had been transferred to her
prior to Mr. Lee's death) established for family
members receiving copies of this correspondence the
primary element of the then secret Catron opinion
that property transfer to Ms. Harrison, a non­
beneficiary, was allowed. When one of the family
members asked Ms. Aubrey to challenge Mr.
Catron's role in the property transfers, she moved to
withdraw saying such a challenge would be
"unprofessional." The presiding Judge in the probate
proceeding at that time, March 2003, was Judge
(now Justice) Barbara J. Vigil who allowed Ms.
Aubrey's withdrawal and ultimately issued a final
order closing the probate case without any review of
the Trust Contract.
Pro Se Trustee Used to Block Contract Review
The September 11, 2019 Memorandum Opinion of
the N.M. Court of Appeals misstates the record by
saying that "Plaintiff persisted in attempting to
represent the Trust despite repeated rulings that he
could not do so because he was not an attorney."
(Pet. App. 10a, §8, lines 17-19).
Petitioner-Trustee has always argued as an
individual person operating under the terms of the
family Trust Contract representing nobody else other
than himself burdened, as trustee, with (i) legal
- 12-

responsibility for all property conveyed to him under
the contract and (ii) the duty to understand, loyally
follow, and legally enforce the language in the
contract. This duty has included fourteen years of
attempts to enforce this language against predatory
attorneys who directed or assisted in the removal of
property from the trustee's possession in a clear
breach of the Trust Contract.
From July 2006 through September 16, 2008
Petitioner-Trustee (Van Auken acting in the capacity
of Trustee under the Trust Contract) correctly
asserted his standing as a trustee to appear in New
Mexico courts pro se. From September 16, 2008
through the completion of a United States Supreme
Court appeal of new case law requiring fiduciaries to
appear
through
counsel,
Petitioner-Trustee
continued to act on a pro se basis. With the denial of
a USSC Petition for Rehearing on November 30,
2009, Petitioner-Trustee retained counsel and has
maintained an attorney-client relationship with just
two different New Mexico attorneys continuously
since then to the present day.
One of the most effective means used to block full
review of the Trust Contract arose from an early
defense strategy adopted at the begining of this Case
by all Respondents and subsequently embellished by
cooperating state court judges. The strategy was to
attack the pro se status of the Petitioner-Trustee as a
litigant who, it was asserted, had no standing to
appear in a New Mexico courtroom. Not only did this
defense block full consideration of the Trust Contract
for five years, it ultimately led to two dismissals in
this Case: (i) the dismissal of the 2007 consolidated
appeal by Judge A. Joseph Alarid in a June 27, 2008
- 13-

Memorandum Opinion (Pet. App. 95a-100a) and (ii)
Judge Singleton's March 31, 2011 Order of Dismissal
with Prejudice.
The five years of pro se argument is clear evidence
of suppression of Petitioners' due process rights for
several reasons some presented in Petitioners'
September 27, 2019 Motion for Rehearing (Pet. App.
21a-22a, ^4) and all summarized here.
1. The two statutory claims in this Case of probate
fraud and attorney deceit or collusion were properly
brought in 2006 by both Petitioners, trustee and
beneficiary, without licensed legal counsel each
acting in and for his own interests, legal interests for
the trustee and equitable interests for the bene­
ficiary, so no counsel should have been required4;
2. During the two years 2007 and 2008, in this Case
and two others, Petitioner-Trustee's pro se
appearances led to three state court dismissals and
to two
separate appeals by Petitioner-Trustee
attacking the basis of these rulings that the "Trust"
was an entity like an LLC that was required by law
to appear in court through an attorney;5
3. Petitioner-Trustee's second appeal resulted in a
September 16, 2008 Opinion by Judge Jonathan B.
Sutin of the N.M Court of Appeals in Lee v. Catron,
et al. admitting that the "Trust" was not an entity
and that the "Trustee" was the proper party to sue

4 U.S.C. §1654, Appearance personally or by counsel (Pet. App.
90a)
5 All three dismissals were based on established New Mexico
case law for Limited Liability Companies (LLCs) found in
Martinez v. Roscoe, 2001-NMCA-083

- 14-

and be sued. (Pet. App. 102a-103a, §§2-3) This
Opinion removed all legal support from two earlier
dismissals by district court Judge James A. Hall and
one earlier ruling by appellate court Judge A. Joseph
Alarid;
4. On his own initiative, appellate court Judge Sutin
extended his Opinion in Lee to include two sections
that set forth new case law for New Mexico requiring
that all (non-attorney) fiduciaries act through
counsel when representing the interests of
beneficiaries because, in representing these "others"
without an attorney, the fiduciary such as a trustee
of a family trust is "practicing law without a license."
(Pet. App. 103a-104a, §§4-5) This new case law
equating a trustee's "representation" of a beneficiary
with an attorney's "representation" of a client seems
in conflict with the New Mexico Trust Code. (Pet.
App. 92a)
5. Petitioners' have noted the uncertain effect the Lee
Opinion has on claims filed two years earlier (Pet.
App. 24a, 1f7) but one thing that is clear is that the
basis for Judge A. Joseph Alarid's Memorandum
Opinion of June 27, 2008 was entirely removed by
Lee. This likely invalidated the effect of his final
ruling on each of the five 2007 appeals made by
Petitioners in this Case for orders entered by Judge
James A. Hall on February 8, 2007: four dismissals
and an ambiguity finding on language in the Trust
Contract.
6. The entire Memorandum Opinion of Judge Alarid
is reproduced in Section D of the Appendices to this
Petition. (Pet. App. 95a-100a) This ruling has colored
the legal framework of this Case in two important
ways related to the broad obstruction of Petitioners'
- 15-

due process rights in this Case. The first way, one of
obstruction, subtley and incorrectly extends the
impact of the attacks on Petitioner-Trustee's pro se
standing to appear in Court.
7. In a section titled "Background" of the September
11, 2019 Memorandum Opinion affirming the district
courts's dismissal of Petitioners' Rule 1-060(B)(6)
Motion, there appears this odd line: "Plaintiff on
behalf of the Trust (as trustee) and personally (as
beneficiary) is seeking to recover an asset — the
house referred to as the Timberwick Property - for
the Trust so that it can be distributed to himself as
beneficiary." (Pet. App. 11a, §9) This piece of
background information came directly from Judge
Aland's 2007 Memorandum Opinion (Pet. App. 98a,
lines 2-5) and it is demonstrably not true.
Petitioners' never sought return of family property
but rather made statutory claims of probate fraud
and attorney deceit or collusion that provide money
damages including treble-damage forfeiture.
8. Where this bogus background information came
from is not clear but its effect on the due process
obstruction in this Case is very clear since it links
the claims of the Petitioner-Beneficiary in this Case
to those of the Petitioner-Trustee when in fact each
has standing under the statutory claims for
damages, equitable damages and legal damages,
independent of the other. In his Memorandum
Opinion Judge Alarid improperly invoked the
"indispensible party" rule6 (Pet. App. 99a, Tf2) and

6 NMRA Rule 1-019(B) Joinder of persons needed for just
adjudication, Determination by court whenever joinder not
feasible

- 16-

the Repsondents and cooperating district court
judges have improperly run with it ever since.
9. The entire transcript for Judge Sarah Singleton's
March 17 hearing that produced her dismissal of all
claims in this Case is also reproduced in this Petition
in Sectin D of the Appendices. (Pet. App. 105a-126a)
The transcript shows throughout that the dismissal
was based on Judge Aland's Mandate (of uncertain
legal force) and the (made-up) requirement to join an
indispensible party.
Dismissals Without Contract Review Non-Final
The other way in which Judge A. Joseph Aland's
work has colored the framework of this Case actually
supports arguments presented in this Petition
demonstrating judicial obstruction of due process.
This suppport can be summarized in a single
concluding sentence from Judge Aland's first
Calendar Notice7 of January 7, 2008 for Petitioners'
consolidated appeal:
"Since all the issues in this case must be resolved
by the trial court before any judgment related to
the Trust becomes final, and since, as a matter of
policy, this Court does not favor piecemeal
appeals, we are not inclined to allow this case to
be appealed on a piecemeal basis, and therefore
propose to dimiss Plaintiffs appeals from all of the
district court orders as non-final."
Judge Alarid viewed Judge Hall's ruling on trust
ambiguity as a non-final order (Pet. App. 75a) and,
7 This Calendar Notice or Proposed Summary Disposition as it
is titled is not reproduced in this Petition hut its thinking on
’’not final” orders is referenced in the Alarid Memorandum
Opinion that is appended. (Pet. App. 98a, f 2, lines 1-3)

- 17-

since all issues relating to the trust are "inextricable
interwoven," suggests that the district court reach a
final determination of the meaning and effect of the
language in the Trust Contract as a pre-requisite to
review of all other matters including any dismissal of
claims against Respondents.
This principle of requiring resolution of the
language in the Trust Contract before all other
rulings in this Case is exactly what Petitioners' have
unsuccessfully argued throughout. It is a principle
that has been violated by the district court three
times.
(i) In 2004, Judge Carol Vigil in Alexander v.
Harrison, dismissed the entire case with prejudice
without ever reviewing any of the pleadings on Trust
Contract language after signing a Stipulated Order
citing use of Mark V on the language; (Pet. App. 73a)
(ii) In 2007 Judge James A. Hall in this Case
dismissed claims against Respondents Aubrey and
Wirth without having made any final determination
of the directly pertinent meaning and effect of Trust
Contract language; and
(iii) In 2011 Judge Sarah Singleton in this Case
dismissed all claims with prejudice indicating during
the hearing that Petitioners could determine the
meaning and effect of language in the Trust Contract
in a separate proceeding sometime later.
In each of these instances the district court
suppressed or denied Petitioners' due process rights
in civil legal proceedings to hold to account people
involved in sidelining an apparent breach-of-trust
issue in the 2002 Probate Proceeding In Re Burr E
Lee Jr leaving the issue of the "taking" of family
property without due process for this Case.
- 18-

Injunctive Relief Order and Rule 60 Motion
In the eighteen year record of this Case and
related cases there is no single act of the state courts
of New Mexico that better exemplifies obstruction
and outright denial of Petitioners' due process rights
than the November 1, 2011 Order for Injunctive
Relief issued by then-Judge (now Justice) Barbara J.
Vigil. (Pet. App. 127a-128a) In spite of statutory law
prohibiting objections to those requesting judicial
determination of a "writing,"8 Petitioners' were
severely sanctioned for asking for such a
determination too many times after filing, through
counsel and together with all of his siblings, a
Declaratory Proceeding on June 4, 2011. Judge
Barbara J. Vigil was the presiding judge in the
corrupted 2002 probate proceeding at issue in this
Case, a proceeding that took place nine years earlier
in the same First Judicial District Court in Santa Fe
as the Declaratory Proceeding.
Through an attorney, Petitioners have, since 2011,
carefully prepared, filed and argued an NMRA Rule
1-060(B)(6) Motion to set aside the March 31, 2011
final dismissal of this Case on the basis of
"exceptional circumstances" in a manner that fully
conforms to the severe terms of the Order for
Injunctive Relief, including requesting permission of
the district court to do so and allowing Respondent
Fletcher R. Catron, Esq, pre-emptive review. The
record of this motion shows that the presiding judge,

8 New Mexico Declaratory Judgment Act, NMSA §44-6-2 Scope:
“No action or proceeding shall be open to objection on the
ground that a declaratory jusgment or decree is prayed for.
(Pet. App. 90a, No.20)

- 19-

then-judge (now Justice) David K. Thomson, prior to
his June 7, 2016 denial of the Motion, granted only
partial review; denied a deposition request to
memorialize the testimony of the author and witness
to the 1979 Trust Contract, attorney William Joost,
Esq. then in ill health; and struck most of the
argument
and
evidence
on
"extra-ordinary
circumstances" from the official court record in this
Case.
REASONS FOR GRANTING THE PETITION
The reasons for granting this Petition are, first, to
provide "due process" relief for the refusal of the
N.M. state courts to provide a final construction of
the Seton Family Trust Agreement so that the
original claims against the Respondents can be
pursued by Petitioners; second, to set forth precedent
for equity cases such as this one that court failure to
recognize the legal authority of end-of-life contracts
such as wills and trusts obstructs the proper
procedure for resolving disputes by infringing on
the due process Constitutional rights of the litigants;
and thirdly, that the legal community itself is
threatened by the growth in equity theft activity
similar to that presented in this Case.
I. State Courts Refused to Provide Meaning
and Effect of Trust Contract Language
State courts are given considerable latitude in
exercising their equity powers. Probate courts have
difficult judgment calls every day of the week, calls
that somebody must make in a civil society.
However, when valid end-of-life contracts such as
wills and express trusts are ignored, suppressed or
intentionally breached without consequence, a line
-20-

must be drawn and the practice stopped. Civil society
cannot function if written agreements between
parties cannot be legally enforced. Buildings would
not be built, manufacturing would not occur,
financial relationships would collapse. Does the fact
that one of the parties to a trust contract is deceased
make it any less enforceable? It shouldn’t. A trustee,
one of the living parties to a trust contract, has the
principal duty of faithfully and fully executing the
lawful intentions of the settlor(s), the other party(ies)
to the contract, who have set these intentions down
in writing in language that appears in the contract.
The record in this Case and in five related cases
shows a trustee and a beneficiary using the courts to
enforce a mother’s intent as expressed in a six-page
contract. Three related cases have already been the
subject of petitions to this Court. Each has sought
review of due process violations along with other
matters. In this Case, the fourth to request review by
this Court, Petitioners address only the single issue
of due process denial and there is no better evidence
of the denial of due process in a state court system
than its refusal - not just failure but refusal - to
make a final judicial determination of the meaning
and effect of a valid contract. Contract construction
is not an equity matter. It is a matter of law. The
state courts of New Mexico should be ordered to do their
job as required by law and by civil society.
II. State Courts Obstructed Due Process
As the contents of this Petition make clear, the
state courts due process infringements of Petitioners’
Constitutional rights were not limited to just the
refusal to determine the meaning of the Trust
Contract essential to the claims in this Case. Many
- 21 -

other preliminary judicial acts of due process
suppression or denial also occurred. The three most
significant of these other acts were the subject of
earlier petitions to this Court.
In 2008 this Court was asked to review new case
law, Lee v, Catron, 2009-NMCA-018, created in a
directly related case to thwart Petitioner-Trustee’s
ability to appear in court pro se on the basis that the
trustee was a fiduciary acting for "others” (the
benficiaries) and that appearing pro se was
"practicing law without a license.” PetitionerTrustee’s arguments that this new case law was “ad
hoc, conflicted, and unconsitutional” were not reviewed.
In 2011 this Court was asked to review the
dismissal of a related case for fraud and conspiracy,
a case not linked to the 2002 Probate Proceeding,
where the district court dismissed the claims of both
trustee and beneficiary on the basis of the newly
minted case law in Lee v. Catron that only had legal
effect on fiduciaries such as trustees, not on
beneficiaries. Trustee and beneficiary arguments
were presented in separate petitions to this Court.
Neither was accepted for review.
In 2013 this Court was asked to review the
dismissal and injunctive relief granted in the 2011
Declaratory Proceeding and, again, trustee and
beneficiary arguments were presented in separate
petitions to this Court. Again neither was accepted.
It is time for this Court to review the entire record
in this Case at the intersection of equity and law
curtailing thereby, through precedent, similar
practices involving due process violations in many
other equity theft cases..

- 22 -

III. Due Process and Equity Theft Trends
It is estimated that by 2030 the amount of wealth
transferred each year from the older generation to a
younger generation will increase from the current
$1.5 trillion to approximately $2.5 trillion. Petitioner
is not aware of any formal study or assessment of
these wealth transfer numbers but the fact that they
are very large and growing appears to be common
knowledge anong banking, real estate, and general
wealth management professionals.
On one hand, this situation presents a substantial
and growing opportunity for members of the legal
profession to provide legal advice and documentary
deliverables in support of these transfers; but, on the
other hand, to the extent that predatory attorneys
and cooperating state judges predictably engage in
equity theft that improperly redirects the assets
being transferred, these trends will stifle any serious
interest in end-of-life legal services. Who would
spend money on an estate plan that could be
compromised by predators when it was most needed?
Unless they are stopped, the predators and their
illicit “revenues” will become the center of a network
of equity theft racketeering involving whole law
firms, state judges, healthcare agencies, lawmakers
and other elected officials.
The equity theft problem presents itself beyond
the boundaries of New Mexico in most if not all other
states. A great many groups around the country have
dedicated themselves to reforming the end-of-life
legal practices involving transferrable assets
particularly in the area of involuntary guardianship
where assets are stripped from a ward “for the

-23-

benefit of the ward” many times in direct violation of
the terms of estate plan contracts.9
This appeal and this Case present an opportunity
for this Court to draw a line in the sand: individual
estate contracts must be honored or, if not, the
reasons why clearly stated and judicially approved.
CONCLUSION
For each and for all of the above reasons, this
Petition for a Writ of Certiorari should be granted.
Respectfully submitted
Richard A. Van Auken, Trustee, pro se, and
Richard A. Van Auken, Beneficiary, pro se
223 North Guadalupe Street, #603
Santa Fe, New Mexico 87501
917/216-0523
sftrustcase@swcp.com

9 KasemCares Foundation, The Law Project, Elder Justice
Coalition, AARP, and Center for Estate Administration Reform

- 24-

